No. 20-255

 

In THE
Supreme Court of the United States

MaHANOY AREA SCHOOL DISTRICT,
Petitioner,

Vv.
B.L., A Minor, by and through her father,

LAWRENCE LEvy and her mother, BETTY Lou LEvy,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF HISD STUDENT CONGRESS,
KENTUCKY STUDENT VOICE TEAM,
MARCH FOR OUR LIVES ACTION FUND,
STUDENTS FOR A SENSIBLE DRUG POLICY,
AND STUDENT VOICE AS AMICI CURIAE
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,990 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
